<html>
<title> - HEARING ON THE NOMINATION OF R.D. JAMES TO BE ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS</title>
<body><pre>[Senate Hearing 115-137]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 115-137

 HEARING ON THE NOMINATION OF R.D. JAMES TO BE ASSISTANT SECRETARY OF 
                        THE ARMY FOR CIVIL WORKS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-250 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 6, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Blunt, Hon. Roy, U.S. Senator from the State of Missouri, 
  prepared statement.............................................     4

                                WITNESS

James, Rickey Dale ``R.D.,'' Engineer, Mississippi River 
  Commission.....................................................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    13
        Senator Carper...........................................    15
        Senator Booker...........................................    17
        Senator Cardin...........................................    19
    Response to an additional question from Senator Duckworth....    20
    Responses to additional questions from Senator Gillibrand....    20
    Response to an additional question from Senator Markey.......    22
    Responses to additional questions from:
        Senator Sanders..........................................    23
        Senator Sullivan.........................................    24
        Senator Whitehouse.......................................    26
    Response to an additional question from Senator Wicker.......    30

 
 HEARING ON THE NOMINATION OF R.D. JAMES TO BE ASSISTANT SECRETARY OF 
                        THE ARMY FOR CIVIL WORKS

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Sullivan, Whitehouse, 
Merkley, Booker, Markey, Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider the nomination of R.D. James to 
serve as Assistant Secretary of the Army for Civil Works.
    The Assistant Secretary establishes policy direction and 
provides supervision over the Department of the Army functions 
relating to all aspects of the Civil Works program of the U.S. 
Army Corps of Engineers. This Committee shares jurisdiction 
over Mr. James' nomination with the Senate Armed Services 
Committee, which has already held a hearing and reported the 
nominee favorably by voice vote.
    The Assistant Secretary plays a central role in ensuring 
the navigability of America's ports and inland waterways. The 
Assistant Secretary is tasked with overseeing the Army Corps' 
Flood and Storm Risk Management, including responding to 
emergencies such as Hurricanes Irma and Maria.
    The Assistant Secretary also is charged with protecting and 
restoring aquatic ecosystems, while allowing infrastructure 
development. America's water infrastructure faces numerous 
challenges, including those impacting rural States like 
Wyoming. Mr. James is well qualified to tackle those 
challenges. He has served as a civil engineer member of the 
Mississippi River Commission since 1981. That is 36 years. He 
was appointed to that position by both Republican and Democrat 
Administrations. Throughout his tenure, Mr. James has helped 
lead the Commission's efforts to improve the conditions of the 
Mississippi River, foster navigation, promote commerce, and 
reduce destructive flooding.
    He gained extensive experience collaborating with five 
presidential Administrations, State and local officials, and 
the public at large. Prior to joining the Mississippi River 
Commission, Mr. James worked at the Kentucky Department of 
Water Resources as a Water Resources Design Engineer for State 
water resources projects.
    Mr. James is also an accomplished farmer and businessman. I 
look forward to working with Mr. James, once he is confirmed, 
on projects and issues important to Wyoming, including 
challenges associated with providing long term water supply and 
storage to rural communities, and preventing flooding and 
modernizing levees. For example, it is past time to find a 
permanent solution to preventing ice jams such as those that 
caused the Big Horn River to flood in the city of Worland.
    I also look forward to working with Mr. James on major 
policy issues such as the Trump administration's proposed 
withdrawal of the Waters of the U.S. rule and legislation to 
address our nation's most critical infrastructure needs, which 
is a top priority of this Committee.
    Confirming Mr. James to be Assistant Secretary of the Army 
for Civil Works will be an important step in empowering the 
Army Corps of Engineers to more effectively and efficiently 
address our nation's infrastructure needs.
    I will now turn to the Ranking Member of the Committee, 
Senator Carper, for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Mr. James, great to see you again. Thanks for stopping by 
yesterday.
    There is a lady sitting behind you, over your right 
shoulder. Do you know her?
    Mr. James. Yes, I do.
    Senator Carper. How well?
    Mr. James. Very well.
    Senator Carper. Does she have a couple of Es in her name?
    Mr. James. Yes, she does.
    Senator Carper. Yes, she does; got an extra one.
    Welcome. Is it Jennye? Welcome. We are happy you are here. 
Thank you for allowing your husband to do this, and a lot of 
the other things he has done with his life. I was the only one 
here on the Committee when he came in, and I told him I was the 
only one coming, and he said that's a good thing.
    [Laughter.]
    Senator Carper. Maybe yes; maybe no.
    We are glad you are here and grateful that you have been 
nominated. Look forward to this hearing.
    As we all know, this is a position that is real important 
to, I think, all of us in this room. I am going to ask John 
King, right behind me, just to hold up a map. We have all seen 
maps of the United States of America, but how many court 
districts are there? Thirty-seven? Thirty-eight in all. And 
they spread all the way from Alaska all the way to Hawaii, from 
Oregon and Washington up in the northwest to Maine up in the 
northeast, Florida down in the southeast, and California; and a 
lot of them have water. A lot of them have water. A lot of them 
have coast.
    In fact, I think about 80 percent of the people in this 
country, maybe 75 percent of the people in this country live 
within about 75 miles of one of our coasts. And one of the 
things I am going to mention in my comments is how much money 
we are spending to allow the Army Corps of Engineers to, 
frankly, address all these needs, all these needs around our 
country, across all this water, and it is huge. And sometimes I 
don't think--and I think my colleagues agree--we probably don't 
provide enough money.
    All right, but thanks for joining us today, for your 
willingness to serve, and Jennye for joining him and allowing 
him to do this.
    If you are confirmed, Mr. James, you are going to be 
overseeing, as you know, the Army's Civil Works program. 
Through this important program, the Corps is responsible for 
responding to and reducing the likelihood of flood damage.
    The Civil Works program also includes the construction, the 
operation, and maintenance of our nation's ports and inland 
waterways, which are the gateways of both domestic and 
international commerce. It also includes shoreline and coastal 
protections for the areas of the country that are dramatically 
affected by large bodies of water, such as my own home State of 
Delaware. And if confirmed, you will also oversee the Army 
Corps of Engineers' activities for environmental regulations 
and permitting.
    Mr. James, the responsibilities of the position to which 
you have been nominated are daunting, and if confirmed, you 
will be leading efforts that dramatically affect just about 
every part of this big country of ours that we just took a look 
at. As such, we on this Committee should take your nomination 
very seriously, and we do. In your role as a member of the 
Mississippi River Commission for the last 36 years--how old 
were you when you started out, 12?
    Mr. James. Six.
    Senator Carper. Six. OK.
    [Laughter.]
    Senator Carper. You have had a direct impact--I am tempted 
to ask if Jennye was a child bride. I won't get into that.
    But you had a direct impact on a number of successful 
initiatives for that region, and it is a pretty big region, as 
I understand. The geographic scope, though, that the Commission 
manages, however, is narrow compared to what you are about to 
take on. When I met with you earlier this week, you committed 
to coming to visit us in the First State, in Delaware, 
expressed an interest in visiting other States as well. I think 
that is terrific, and I urge you to follow through on that. We 
will be sure to welcome you warmly.
    But if I were in your shoes, you have great expertise about 
certain parts of the country, but obviously you can't know it 
all, and this is a good chance. There is nothing like being 
there, going there, so I am happy that you are doing that.
    This country, much like this Committee, has very diverse 
and broad geographic makeup, from the coastal communities such 
as those represented by Senators Booker, over here to my left, 
and Whitehouse, to rural communities such as those represented 
by Senator Ernst and Senator Rounds, to inland communities such 
as those represented by Senator Barrasso and Senator Duckworth. 
All these regions have various water interests managed by the 
Corps of Engineers.
    In your new role, should you be confirmed, you will have to 
balance a wide range of competing interests. It is important 
that you visit these different types of communities to garner a 
broader understanding of the challenges that each face, and I 
am encouraged that you plan to do just that.
    As you know, the President has said that America's aging 
infrastructure should be modernized and rebuilt. My guess is 
that just about every U.S. Senator has said the same thing, 
including those on this Committee. Democratic Senators 
released, in fact, a blueprint earlier this year that called 
for rebuilding our infrastructure for our country. Senators on 
both sides of the aisle are supportive of investing in 
infrastructure, and such an investment should include funding 
that would allow the Corps to address our country's water 
infrastructure needs.
    While I am interested in learning how the Corps can be more 
efficient with the appropriated funds that you receive to get 
the most out of every taxpayer dollar, I also believe that the 
Corps has been considerably underfunded for a number of years, 
and I am not the only one here in the Senate who feels that 
way.
    Water infrastructure investment is a shared responsibility, 
as you know, with State and local governments, and I want to 
make sure that these jurisdictions get the help they need while 
they are doing their part, as partnered with the Federal 
Government. I also want to learn more about how we can make 
sure that we prioritize the most critical investments that need 
to be made in our nation's aging infrastructure.
    With that being said, there is no one size fits all 
approach to solving this problem. Should you be confirmed, you 
will be a central figure for making sure that these bipartisan 
concerns are addressed. I look forward to hearing your thoughts 
on these important matters.
    Again, Mr. Chairman, thanks for bringing us together.
    And to Mr. James, your wife, we are grateful. Anybody else 
in your family that is here, we are grateful that you are here. 
Welcome. Thanks.
    Senator Barrasso. Thank you very much, Senator Carper.
    Senator Blunt wanted to be here as well to introduce you, 
Mr. James, in person. Unfortunately, his schedule would just 
not allow it, but he has submitted a statement in support of 
your nomination, which I am going to submit for the record. 
Without objection.
    [The prepared statement of Senator Blunt follows:]

                     Statement of Hon. Roy Blunt, 
                U.S. Senator from the State of Missouri

    I would like to express my strong support for the 
confirmation of Mr. R.D. James to the role of Assistant 
Secretary of the Army for Civil Works.
    Mr. James is from New Madrid, Missouri, and brings with him 
a deep understanding of our nation's water resource needs.
    As a civil engineer, farmer, and small businessman he has 
the perspective of someone who knows first hand the importance 
of the role the Corps of Engineers plays.
    For the past 36 years Mr. James has served as a member of 
the Mississippi River Commission providing advice to the 
Congress, several Administrations, and the Army Corps.
    His vast experience with our nation's most significant 
waterway, and decades of leadership on flood control and 
navigation issues, have prepared him to effectively take on 
this role.
    I know Mr. James believes, as I do, that our nation finds 
itself at a pivotal point where we must decide to make smart 
investments in our nation's critical infrastructure or else 
lose our competitive advantage in the world economy.
    As the Administration continues to develop its 
infrastructure proposal, it is vital that we have a strong 
voice for our nation's ports, flood control, and maritime 
infrastructure so there is a comprehensive approach to our 
interconnected transportation system.
    As the events of the past couple of months show, the Corps 
plays an indispensable role in response and recovery from 
natural disasters as well as in the planning and construction 
of flood control projects to reduce future risks.
    I have full confidence that Mr. James has the knowledge and 
skills needed to provide leadership for the Corps to fulfill 
its vital missions, and I urge your support of his 
confirmation.

    Senator Barrasso. Now I would like to turn to you to 
welcome you, our nominee, to the Committee. I remind you that 
your full testimony will be part of the record, so I would like 
to invite you to introduce family members who are here, if you 
would like, and then please proceed with your testimony.

           STATEMENT OF RICKEY DALE ``R.D.'' JAMES, 
             ENGINEER, MISSISSIPPI RIVER COMMISSION

    Mr. James. Thank you, Mr. Chairman.
    Chairman Barrasso, Senator Carper, and distinguished 
members of the Committee, I am truly honored to come before you 
today as the nominee to serve as the Assistant Secretary of the 
Army for Civil Works. First and foremost, I want to thank 
President Trump and Secretary of Defense Mattis for placing 
their trust in me and providing me with this remarkable 
opportunity to serve the public in such a vital role. I thank 
you, Mr. Chairman, and each and every member of this Committee 
for allowing me to testify before you today. I am very humbled 
to be here.
    Mr. Chairman, members of the Committee, thank you for your 
kindness in allowing me to first introduce my family, my wife, 
my love of 47 years, Virginia Jennye James, my son, Riley 
James, which, due to his hard work and education, will allow me 
to come up here if confirmed. It is a family business that we 
run and operate. I would also like to recognize our beloved 
daughter, Elizabeth James, who departed this life 22 years ago, 
at the tender age of 19 years.
    I am R.D. James of New Madrid, Missouri. I'm a farmer, a 
businessman, a civil engineer, and for the past 36 years, a 
presidential appointee to the Mississippi River Commission.
    Our country enjoys the largest contiguous acreage of 
agricultural land in the world. This ``bread basket'' and 
abundant food provider also overlays the longest inland 
navigation system in the world, actually being longer than all 
other inland navigation systems combined. Our country is 
blessed with natural locations along all our coasts that have 
long served as ``port of call'' and which can, once deepened, 
serve and promote our continued participation in the global 
trade market. These ports are critical to our national defense, 
our agricultural industry, our international trade, and our 
economic superiority.
    As we know, none of these natural blessings came cheap or 
easy. Our forefathers' blood and sweat built this great 
commercial infrastructure with shovels, picks, and axes. 
Suffering and sacrificing for years, our forefathers built this 
great nation into the world power it is today. We are now the 
benefactors of all this great infrastructure and must do 
everything possible to maintain and enhance it for future 
generations of Americans.
    In addition to locks and dams, water supply, navigation, 
ports, flood control, ecosystem and environmental stewardship, 
Congress directed the Corps to construct and operate a crucial 
source of renewable energy, that being hydropower. This 
renewable now produces more electricity than all other 
renewable generators combined. Flood control and hydropower 
facilities have significantly contributed to our world class 
status. As we restore past environmental damage and mitigate 
present impacts, our past investments in water resources 
infrastructure will benefit our children and their children for 
years on end.
    My 36 year tenure as a member of the Mississippi River 
Commission taught me valuable lessons which I would like to 
share with you. Civil works infrastructure directly supports 
national defense. Many regions would be out of fresh water 
without civil works projects. Silted-in rivers do not transport 
commerce or sustain jobs. Outdated and shallow ocean ports will 
not promote economic growth and continued dominance in world 
trade.
    Inaccessible small ports and harbors will halt the shipping 
of grain and goods from the interior of the country to the 
larger ports. Crumbling locks and dams will land-lock grain and 
other bulk commodities essential to our nation's economic 
survival. Inadequate flood control does not protect lives or 
property, nor provides fresh water or stabilizes river 
alignment, and does not support navigation. If not neglected, 
the ecosystem restoration and environmental enhancement can be 
the icing on this civil works cake.
    Let me report to you that during the SAS Committee hearing 
I was asked to recuse myself on a project that has been ongoing 
in the Corps for many years; it is the St. Johns New Madrid 
Floodway Project. I and my family have land inside that project 
that would benefit from that project, and I have signed a 
recusal statement before I left the SAS Committee. And the 
other part of that is it is the same area of land, but it is a 
different thing; it is the New Madrid Floodway, and it is blown 
artificially by explosives to allow waters to flow through the 
floodway, thereby reducing elevations on the river during major 
flooding times. And I recused myself from that floodway 
operation to the point that it might affect or benefit my 
family.
    Finally, let me just say that I am firmly committed to 
cooperation and collaboration at all governing levels. I also 
deeply believe in being a catalyst for friendship and 
partnership, nurturing the existing ones and developing new 
friendships and partnerships based on mutual professional trust 
and respect. If confirmed as the Assistant Secretary of the 
Army for Civil Works, I plan on immediately contacting OMB, 
EPA, Interior, Agriculture, and any other agency that has 
interest in civil works. I am profoundly committed to working 
with all Federal, State and local agencies, this Congress, and 
the Administration to advance our water resources and 
infrastructure needs.
    Thank you, Chairman. Thank you, Senator Carper, and members 
of this Committee for your time and the opportunity to appear 
before you today, and I look forward to discussing any 
questions you might have.
    [The prepared statement of Mr. James follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    
        
    Senator Barrasso. Well, thank you very much, and 
congratulations again, and welcome to your family. I will say 
we are going to enter a period of questioning now, and I would 
ask that throughout this hearing you please respond to the 
questions today, as well as those that members may submit 
afterwards for you to respond in writing for the record.
    Now, I have to ask the following questions that we ask all 
nominees on behalf of the Committee.
    First is do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and other 
appropriate committees of Congress and provide information 
subject to the appropriate and necessary security protection 
with respect to your responsibilities?
    Mr. James. Yes, sir.
    Senator Barrasso. And do you agree to ensure that 
testimony, briefings, documents, and electronic and other forms 
of information are provided to this Committee and its staff, 
and other appropriate committees, in a timely manner?
    Mr. James. Yes, sir.
    Senator Barrasso. And do you know of any other matters--you 
have raised a couple--that you may not have disclosed that 
might place you in a conflict of interest, if confirmed?
    Mr. James. No, sir.
    Senator Barrasso. I am going to defer my questions because 
I know Senator Sullivan needs to go and preside, so I will give 
up my time to Senator Sullivan, and I will pick up my time in 
your available space.
    Senator Sullivan. Thank you very much, Mr. Chairman.
    Mr. James, welcome. I think you are very qualified for this 
position and look forward to supporting you. As the Chairman 
mentioned, your position is actually kind of at the 
intersection of really some key issues; infrastructure, but 
also DOD strategy, and that is why you are here on two 
committees, both of which I served on.
    You and I had a very good meeting, but I am just going to 
be straightforward here. I am going to need some more 
definitive answers from the Department of Defense on some key 
issues that I am concerned about that I am not getting answers 
on before I am going to allow to move forward on a vote for 
you. They relate to an issue we have talked about, and it is 
the Arctic and its strategic importance to the United States, 
so I am going to talk a little bit about that. It is more on 
your SASC or your Armed Services role, versus the EPW, but 
there is an intersection here.
    In the last several years we have had a huge build up of 
Russia's Arctic capabilities. A new Arctic command, four new 
Arctic combat brigades, 14 operational airfields by the end of 
this year, 16 deepwater ports, 50 airfields by 2020, a 30 
percent increase in Russian special forces, 40 icebreakers; 
they are building 11 more, 3 of which are nuclear powered.
    And Mr. Chairman, if I could submit for the record this map 
that shows all the Russian Arctic build ups.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Sullivan. And we have had U.S. leaders, Democrats 
and Republicans, from Ash Carter to John McCain. He wrote an 
op-ed in the Wall Street Journal called The Real Arctic Threat. 
It is about the Russian build up.
    If I could submit this for the record as well.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Sullivan. And the quotes from all Democratic and 
Republican senior leaders on the Arctic and what we need to do 
there.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Sullivan. One of the quotes was from Secretary 
Mattis: ``The Arctic is key strategic terrain. Russia is taking 
aggressive steps to increase its presence there. I will 
prioritize the development of an integrated strategy for the 
Arctic. I believe that our interest and security of the Arctic 
would benefit from increasing the focus of the Department of 
Defense.'' That is Secretary Mattis.
    Secretary Mabus: ``As the ice melts on the Arctic, our 
responsibilities clearly are going up. We don't have the 
capability we would like to have in the Arctic.''
    I mean, it is Democrat, Republican, leader after leader has 
been focused and recognized this issue. And we are acting, the 
Congress is acting. In the NDAA we required a new Arctic 
strategy. In last year's NDAA we required a focus from the 
Secretary of Defense and Homeland Security on a strategic 
Arctic port. But what happens when this goes over the 
bureaucracies, of which you will be in charge, is the 
bureaucrats say, no, no, this isn't a good idea, we know what 
we are doing, we are going to blow off Congress, we are going 
to blow off all these leaders.
    Some of us were at the Reagan Defense Forum. I met with 
Secretary Schultz, George Schultz, very, very smart man. First 
thing he said to me is, Senator, what are we doing in the 
Arctic? How come we are not doing anything? We are getting our 
lunch handed to us. Why aren't we doing anything?
    So here is my concern, Mr. James. And again, you have had 
nothing to do with this, but I need answers from the Department 
of Defense on this strategic Arctic port concept that we put in 
the NDAA. It is supposed to be a report. It is already late 
from the Secretary of Defense, Secretary of Homeland Security. 
We have heard about a draft report saying, you know what, that 
is a bad idea; we don't need any capabilities in the Arctic for 
the next 20 years. That is what the draft says.
    Well, I think it is ridiculous. You know what that would be 
like for an East Coast Senator? It would be like saying the 
Port of Miami can cover Rhode Island and Delaware and Boston, 
because the closest deepwater port to all the Arctic activity 
is Dutch Harbor, 1,000 miles away.
    And then as it relates to the Port of GNOME, this is a 
project we have been trying to get going, you and I talked 
about it, with the Corps of Engineers. They have been blowing 
us off, blowing us off, blowing us off. I finally had a good 
meeting with Lieutenant General Semonite yesterday, only 
because your hearing today, I think, where they are finally 
starting to get the message.
    But Mr. James, I know you have had nothing to do with this. 
I think you are well qualified, but I am going to need--no 
kidding--serious answers from the Department of Defense to get 
with the program that Congress and every other leader, Democrat 
and Republican, who has led the Department of Defense saying we 
need to do something here, quit delaying. Russia is eating our 
lunch, and we are doing nothing.
    So, can I get your commitment to work with me? I am going 
to need commitments from the Department of Defense of Defense 
before you move forward on your confirmation, but you are going 
to get confirmed because we will get answers here. But can I 
get your commitment to work with me on these important issues 
that I think almost everybody here--bipartisan support for, and 
yet the bureaucrats over at the Pentagon, in their infinite 
wisdom, which isn't always wise or infinite, believe that we 
shouldn't do anything? Can I get your commitment on that, sir?
    Mr. James. Absolutely, Senator.
    Senator Sullivan. Thank you.
    Mr. Chairman, I am going to have a lot more questions for 
Mr. James for the record, but I appreciate you allowing me to 
go first here, and appreciate the Committee working with me on 
these issues, which don't just benefit my State. These are 
national security issues for the United States of America, and 
we got people over at the Pentagon who have their head in the 
sand, and it needs to stop.
    Thank you.
    Mr. James. I agree, sir, and I appreciated our meeting very 
much, and I have to say I was shocked when I discovered there 
was not a Defense site in the Arctic region.
    Senator Sullivan. There is nothing. Nothing.
    Mr. James. I was shocked by that. So, I will, from whatever 
venue I can work, if I am confirmed, I will work with you and 
your State, the Congress, to see what we can do about that.
    Senator Sullivan. Thank you very much.
    Mr. James. Also, one more thing. If I happen to come before 
this Committee again, if I am confirmed, after I am confirmed, 
if I get to come before this Committee again, I hope none of 
you put me in the definition of a bureaucrat. I don't intend to 
be.
    Senator Sullivan. Good. Thank you very much.
    Senator Barrasso. Senator Carper.
    Senator Carper. I am going to yield to Senator Whitehouse.
    Go ahead.
    Senator Whitehouse. Thank you very much, Senator Carper.
    Welcome, Mr. James. Glad to see you. Thank you for stopping 
by yesterday. I understand from our conversation that, as a 
trained engineer, you will follow responsible climate science 
wherever it leads and that you bring no predisposition against 
climate science, or any science, for that matter. Is that a 
correct understanding of what we talked about?
    Mr. James. Yes, Senator, that is correct.
    Senator Whitehouse. Terrific. We also talked about 
something that you very clearly conceded, which is that your 
expertise is not in coastal matters. Your expertise is with 
respect to inland matters and rivers. So, I wanted to point out 
that the GAO has indicated that we are going to be facing 
multiple billions of dollars of coastal losses annually in the 
short run. The GAO has said that number goes above $50 billion 
annually before the end of the century in coastal losses, this 
mostly from sea level rise and worsening storms; that the GAO 
report cited a figure that the total harm, the total damage to 
America's coasts between now and the end of the century is 
looking to be $5 trillion.
    So, I know that coasts aren't your area of expertise, but I 
sure as heck hope that they will be an area of focus for you. 
And a signal that the Army Corps has not really focused on this 
is the fiscal year 2018 budget, which has $1.3 billion for 
inland projects and $46 million for coastal projects. That is a 
29 to 1 ratio of inland to coastal, at a time when we are 
looking at a $5 trillion hit to coastal economies. So, I hope 
very much that you will focus on this.
    Let me just show you, really quick, a map of Rhode Island. 
Our best data from our University of Rhode Island, from our 
Coastal Resources Management Council, and from NOAA, when you 
put that together, what you come up with is this is the map of 
Rhode Island, the northern part of Rhode Island, up near 
Providence. Here is Providence right up there at the top. This 
is Upper Narragansett Bay. Everything that you see in blue is 
now land, valuable land that has people's homes on it, people's 
businesses on it, critical infrastructure on it. Up here in 
Warren there is a sewage treatment plant in the flood zone. So, 
there is all sorts of stuff that is really at risk in my State.
    At 10 feet, we lose 36 square miles of valuable homes and 
property in my State. So, I really need to make sure that you 
will pay attention to this.
    Could you tell me a little bit about what you might do to 
make that in your office, given that you don't have expertise 
in this area, there will be both expertise and attention to 
this area in your shop?
    Mr. James. Yes, sir, absolutely. And I might say that I may 
have misspoken when I said I didn't have any coastal experience 
as a member of the Commission. The Commission has worked with 
south Louisiana, both river navigation and also trying to keep 
their coast from eroding as badly as it has been in the past. I 
have been a part of that. I will tell you I didn't learn 
everything there is to know about that coastal erosion, but I 
have been in involved.
    Senator Whitehouse. We are just worried that we don't get 
the attention on coasts that the inland and river work does in 
the Corps, that that has been a longstanding problem. But that 
when you are looking at GAO saying, look, it could be $5 
trillion in coastal damage in the decades ahead, and it is 
going to be $50 billion a year, that is something worth paying 
more attention to.
    Mr. James. I will definitely look into that, if I am 
confirmed, and see why that is happening and try to make an 
informed judgment on it. And if there is not some scientific, 
or really, economic reason for that, then I will happily get 
back with you to discuss it further.
    Senator Whitehouse. And I look forward to working with you 
to make sure that somewhere in your office there is somebody 
who really is expert and focused on our coasts and coastal 
infrastructure, because we are past, I think, being able to 
overlook that. And I appreciate it. We had a great meeting, and 
I wish you well.
    Mr. James. Thank you, sir.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    While you are taking care of Senator Whitehouse's coastal 
areas, let's don't forget the most inland port that we have is 
in the Port of Catoosa in the State of Oklahoma.
    Mr. James. I would never forget that.
    Senator Inhofe. All right. Thank you very much.
    [Laughter.]
    Senator Inhofe. We have eight members on the Republican 
side that are also on Armed Services, and all eight were there 
during your hearing on that, so we appreciate the fact that we 
have that jurisdiction, too.
    I have one thing I want to actually specifically talk 
about, because it is probably my greatest single frustration 
with the Corps. The cities of Sand Springs, Oklahoma, and 
Tulsa, Oklahoma, are protected by a levee system that was built 
in the 1940s, and the infrastructure is beyond its useful life. 
The system is in desperate need of repair and protects $2.2 
billion in homes and business infrastructure along the Arkansas 
River, including two large refineries.
    Tulsa citizens have provided $15 million in funding for the 
project, but were stalled in moving forward because the 
feasibility study needs a new start. I have it on good 
authority that the project was on the Corps' list to receive 
one of the six new starts that Congress appropriated last 
fiscal year, but in the end, only one new start was awarded. 
So, the commitment I want to extract from you is that you will 
commit to ensure that this project remains a priority for the 
Corps as Congress finalizes their fiscal year 2018 
appropriations to include new starts for studies. Can I get 
that?
    Mr. James. Yes, sir, absolutely you will get it from me. If 
it was one of the proposed six this past year, I can't see any 
reason that it wouldn't remain on that list. It will become a 
priority to me. And another priority to me will be the shape 
our infrastructure is in in this country. Why are we limiting 
ourselves to six new starts proposed and one new start 
accepted? That is bothering me.
    Senator Inhofe. Well, that bothers me, too, and I 
appreciate that.
    Mr. James, several months ago I joined with Senator King in 
introducing legislation to improve the permitting process for 
natural gas pipelines. That process has become more protracted 
and contentious in recent years, and often the biggest delays 
are from the multitude of Federal and State agencies charged 
with permitting a proposed pipeline. The Corps and its State 
partners are key to permitting agencies in this process, and 
they need to be part of the solution.
    Will you work with us and with Senator King to improve the 
permitting process? This is a process you and I have talked 
about on critical infrastructure projects.
    Mr. James. Yes, sir. You know, to me, a pipeline makes a 
very small footprint. I am sure there are permits that have to 
be obtained from an environmental standpoint, and if it goes 
through a wetland and so forth, but I can't imagine that we 
don't have the technology now to monitor those pipelines to the 
point where, if a leak or crack or something develops, it can't 
be rectified immediately; therefore, with that in mind, I would 
think that would enter into the permitting process.
    Senator Inhofe. And with that answer, I will not call you a 
bureaucrat.
    [Laughter.]
    Senator Inhofe. Last, we have a system of cooperative 
federalism. By the way, I have to say, on the pipelines, in the 
last Administration, you know and everybody around this table 
here knows the problems that we had with pipelines, so I think 
that is part of our history now.
    We have a system of cooperative federalism that has been 
largely absent under the last Administration. The Obama 
administration repeatedly tried to consolidate power in the 
Federal Government, taking away historically held jurisdiction, 
most notably-- well, it has already been once talked about, and 
that is the WOTUS decision that was made, the rule put forth in 
the last Administration.
    By the way, I would remind you, and I think you already 
know this, that that rule was of the greatest significance to 
the farmers of America than any of the other regulations that 
they found. They have a system or list of about 75 regulations 
that are harmful to our farmers. That was No. 1. In my State of 
Oklahoma, I have no doubt in my mind if you change that 
jurisdiction from a State jurisdiction, you get out in the 
panhandle, a very arid area, the first rain that came along, 
that would be a wetland.
    Anyway, what is your view on the cooperative federalism and 
the State's role in regulating our water resources?
    Mr. James. I believe in the federalism aspect of it very 
positively, 100 percent. I think that is the way it should be. 
I don't think the Federal Government should be here to take 
away the rights of a State.
    As far as a rule like WOTUS, I will have to tell you that, 
as Assistant Secretary, if I am confirmed, I will be bound to 
the rules and the laws that Congress makes or administrative 
policy, regardless of my personal feeling about that rule or 
law or policy. That is what I will have to do.
    Senator Inhofe. That is very reasonable. Thank you very 
much. Look forward to working with you.
    Mr. James. Yes.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. I am going to yield to Senator Booker.
    Senator Booker. I am deeply greatly for that.
    Senator Carper. You are quite welcome.
    Senator Booker. Thank you very much.
    Hi, Mr. James. I am grateful for you being here and also 
for your willingness to come by my office really quick later on 
this afternoon; it means a lot to me. And your work will 
inevitably make a difference in the lives of millions of 
Americans, and I am grateful to have this chance to question 
you in an open hearing.
    I want to just start by just talking to you about a project 
that is extraordinarily high priority for the State of New 
Jersey, affecting tens and tens and tens of thousands of folks, 
and that is the Rahway River Flood Control Project, which you 
may be familiar with; I hope you are.
    We had horrible storms that we have seen, including a 
nor'easter in 2007, Hurricane Irene in 2011, that continues to 
damage hundreds and hundreds of homes, costing tens and tens of 
millions of dollars in damage due to these floodwaters. I know 
the Army Corps, headquartered here in Washington, they are 
working closely with regional and district offices, together 
with the New Jersey Department of Environmental Protection, the 
DEP, and the Mayor's Council, Rahway River Watershed Flood 
Control.
    There are a lot of folks who are involved in this, and I am 
grateful for the hard work people are putting in it, but right 
now they are just trying to find a way to work to move forward 
with the plan that they have selected, which is Alternative 4a, 
or some version, and to move as expeditiously as possible.
    There have been some concerns raised in New Jersey that we 
are not moving as expeditiously as possible. I am grateful for 
the efforts of the Army Corps; we have had a great relationship 
since the time I was mayor of Newark, New Jersey, including now 
that I am here, and I am just hoping we can find a way to 
provide my constituents in that region, and all those that are 
concerned in my State, with the protection from what is a 
devastating flood problem. There are a lot of risks to 
property, as well as to life, and it is something that we can 
prevent if we act expeditiously before the next floodwaters.
    So just a basic question would be do you know the latest 
that the Army Corps is thinking about how to proceed as quickly 
as possible with this project in a timeframe?
    Mr. James. No, sir, I can't answer that. I don't know that.
    Senator Booker. OK. Well, then I would ask that maybe 
perhaps you can find out. We can have a discussion not in a 
hearing setting. And then I would just also ask would you 
commit to coming to New Jersey to look firsthand at the urgent 
need for this project.
    Mr. James. Yes, sir, I will make that commitment to you, 
and I will also commit to you that I will work with you and 
your State, and the Corps in this instance, to see what is 
holding it up and try to move forward.
    Senator Booker. I really appreciate that. That means a lot 
to me. And I can see the excitement in your eye when I 
mentioned coming to New Jersey, which gets most people very, 
very pumped.
    [Laughter.]
    Senator Booker. You might leave with a Bruce Springsteen 
sound track, sir, if you are nice.
    Mr. James. OK.
    Senator Booker. In last year's WRDA I was really excited to 
include language to expedite the completion of the reports for 
the Hudson Raritan Estuary Comprehensive Project. This was 
going to restore a lot of coastal resources and wetlands at 32 
sites in the New York-New Jersey Harbor. This is just another 
thing I would love to see if you would commit to working with 
me, in particular, to advance that project.
    Mr. James. Sir, that will be my job, is to look into and 
promote infrastructure in this country, and if that is part of 
it, I will definitely get with you on it.
    Senator Booker. You are a good man, and I appreciate that 
commitment.
    Then the last thing I just want to ask, which is a larger 
issue, not necessarily particular to New Jersey, but on August 
15th, 2017, days before Hurricane Harvey devastated Texas and a 
few weeks before Hurricanes Irma and Maria decimated Florida, 
Puerto Rico, and of course, the U.S. Virgin Islands, President 
Trump made an infrastructure announcement that repealed the 
2015 Federal Flood Risk Management Standard. Raised a lot of 
concerns with me. The rule he repealed would simply ensure that 
federally funded projects in a floodplain, such as roads, 
bridges, hospitals, and infrastructure in general, are built to 
withstand extreme weather and flooding driven by the ravages we 
are seeing as the climate continues to change.
    As the Federal Government is allocating tens of billions of 
dollars to help communities rebuild, I believe it is essential 
that we make sound investments that will not just rebuild, but 
really withstand future weather events. And as the Army Corps 
continues its work to help these communities rebuild, such 
essential work, that is why you are unsung champions in the 
Federal Government, I would just like to know, in general, what 
is your opinion about the Federal Flood Risk Management 
Standard, and do you have some reservations about the decision 
to revoke the Federal Flood Risk Management Standard?
    Mr. James. No, sir, I have no opinion about that 
whatsoever. What I do have an opinion on, in an area where you 
know is going to flood in this United States, or where has been 
flooded by a hurricane, and now we are looking at building 
protection in the future, I do not believe in interim 
protection. I believe if we are going to spend the money, get 
the permits, and try to put something in place to protect 
people and the economy, we need to build it to the point where 
it should be built to begin with.
    Senator Booker. Sir, I am grateful for those words.
    And Senator Carper, I am really thankful for you allowing 
me to get before you.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. James, it is good to see you once again. We go back 
into, what--I think 2009 or 2010, when you were in my home in 
South Dakota when I was working as Governor at that time, and 
we had a chance to visit about the relationship between the 
Missouri River and the Mississippi River, and the water flows 
and so forth. I would like to explore that just a little bit 
with you. I think that is an area in which you probably have a 
lot more expertise than a number of the other individuals that 
have been before this Committee in the past, and part of it is 
water flows on the Missouri flow into the Mississippi, and yet 
at the same time we have obligations to manage the two flows 
independently. Is that a fair statement?
    Mr. James. Yes, sir, it is.
    Senator Rounds. And at the same time, the Missouri, as it 
flows into the Mississippi, provides for adequate flows during 
times in which there is less rainfall coming out of the rest of 
the Mississippi Basin and allows for the ongoing transportation 
industries, barge industries and so forth, to continue. But 
that seems to create conflicts once in a while between the 
Upper Basin and the Lower Basin.
    Even back in 2008, 2009, 2010, prior to the Corps flood of 
2011, as I call it, we talked about the fact that there has to 
be a relationship between the two river systems, and yet during 
the time in which we had huge snowfalls, snowpack, and 
rainfalls early in the year on the Upper Missouri River Basin, 
the Corps had a very difficult time in trying to manage between 
the two river systems. There was flooding going on in the Lower 
Basin; they were holding water in the Upper Basin, hoping that 
there would be time for the Mississippi to begin to drain out, 
and it didn't happen. In doing so, we had a lot of water in the 
Upper Basin.
    The spring of 2011 came, and even as late in the year as 
March 3rd I remember there was an Omaha Herald report where 
there was a statement by a Corps official that said we are 
going to be just fine; we are not going to have flooding on the 
Missouri River unless--and I will paraphrase--unless it rains. 
And it seemed to me that that was a very inappropriate way to 
manage an entire river system, recognizing that the water has 
got to flow through the Missouri and into the Mississippi.
    The amount of damage done in the Upper Missouri River Basin 
from North Dakota, South Dakota, Iowa, Nebraska, on down was 
significant, and to this day there is still damage on the 
actual dams on the Missouri River that have not yet been fully 
repaired.
    I would like to know--before we get into the specifics of 
assuring that we are going to get those repairs made in the 
Upper Basin, give me your thoughts. You have seen this. Isn't 
it about time that we start recognizing the relationship 
between the Missouri River and the Mississippi River with 
regard to management and we start talking about the needs of 
both the Upper Basin States and the Lower Basin States, and 
finding some way to actually work together between these two 
systems?
    Mr. James. Absolutely, sir, I do. As you know, during major 
floods, not only does the Missouri River system come into play 
with the Mississippi, but the Ohio system comes in, and then 
the Red River in the south comes in to significant impact on 
the Mississippi.
    Yes, we need to work together. That is a system. Getting 
water from where you live to the Gulf of Mexico is a challenge, 
and if each river system tries to do that independently of the 
other, we all will lose on that. Now, I haven't worked on this 
in the Missouri system, so I am just speaking from the cuff 
here, but I think one of the problems has been the Master 
Manual and the requirements in the existing Master Manual; it 
pretty well limits what the Corps can do in response to flood 
control.
    Senator Rounds. Sir, I agree with you, and I know that 
right now flood control is No. 1. We all agree on that. And 
yet, during this time in which the Corps had actually tried to 
manage the floodwaters that were accumulating, they didn't even 
have the appropriate tools in place at that time to actually 
measure snowpack in those areas that are above the main stem 
dams of the Missouri River.
    That was directed, and it was supposed to be completed back 
as early as 2014. To this date, I don't believe that has been 
completed. The equipment necessary, we have actually laid out 
that the Corps should be the lead agency in putting together 
the equipment and setting it up for snowpack measurements and 
so forth--and I am out of time, but would you commit to us 
today that you will see that that equipment gets put in place, 
as directed by Congress and as it should have been done in the 
last couple of years?
    Since 2011, since that last major flood did literally 
hundreds of millions of damages along the Missouri and the 
Mississippi. Some of that could have been avoided if we would 
have had adequate tools to have forecasted and brought 
attention to the fact that we had a huge amount of water coming 
through there. They still tell us today those tools aren't in 
place. Would you commit that the tools should be put in place 
and that you will help us get that done as soon as possible?
    Mr. James. Absolutely, Senator, I will commit to that. Let 
me tell you my short story on it, was that after the 2011 
flood, I was quite disturbed to discover that those kinds of 
tools didn't even exist on the Mississippi River, and when I 
pushed that situation, as why do not we have enough gauges 
along the Mississippi to scientifically know, instead of 
guessing, what is going to happen, the answer was lack of 
funding; we don't have the money to buy and install the gauges. 
You know, we used to have the boards on the side of the bank 
that people would go down and read the elevations. Now they 
have the electronic ones that they can read in-office. But that 
was what I was told at the time.
    Be assured that, if confirmed, I will look further into 
this even into the snow areas.
    Senator Rounds. Just one last note, and then I will yield 
back.
    Last year, at a Subcommittee hearing, a Subcommittee of 
this hearing, in North Sioux City, South Dakota, 
representatives of the Corps of Engineers clearly told us--they 
said, you know, we just didn't have the money, and yet it was 
never even requested in their appropriations request to 
Congress to actually get the money.
    Would you commit that you will assist in getting the 
appropriate requests in place so that it can be acted upon by 
Congress?
    Mr. James. Yes, sir.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Rounds.
    Senator Carper.
    Senator Carper. Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair and Ranking 
Member.
    Mr. James, pleasure to see you.
    One of the things that we allocate each year is a Harbor 
Maintenance Trust Fund, but we take in far more than we 
actually put out for infrastructure, infrastructure that you 
can tell by the questions raised here needs a lot of 
improvement. Do you support the idea of using all of the Harbor 
Maintenance Trust Fund to actually do what the Trust Fund was 
set up for, that is, the infrastructure, improve the 
infrastructure of our harbors?
    Mr. James. Sir, I am not sure I could answer that directly, 
not being entirely familiar with the Harbor Maintenance Trust 
Fund. I can answer it this way, though, that I feel like we 
need to be using a lot more than it appears that we are using. 
Now, using it all per year, I can't answer that; really, I am 
not that familiar with it. But we continue to accumulate funds 
in the Harbor Maintenance Trust Fund that we are not using, and 
we have a lot of places that needs that money.
    Senator Merkley. Great. We will be glad to get you details 
on that. But there is a lot of infrastructure that is needed 
over here, and there is a lot of money unused over here gets 
diverted to other things, and I always find it fascinating, the 
word trust fund, and then it is raided for other things.
    One of the things that we fund is work on small ports, and 
that is very important to coastal communities in Oregon and 
throughout the nation, and it hasn't been a set aside in the 
President's budget, so we do it each year in appropriations to 
make sure that there is adequate dredging. But we don't always 
get all the dredging needed.
    Do you support the idea of making sure our small ports get 
dredged so that those communities can maintain both their sport 
and their commercial fisheries?
    Mr. James. With proper funding, absolutely, sir, and that 
is something that I do understand because, along the 
Mississippi River, from Lake Itasca all the way to the Gulf, we 
are having the same problem with small ports in this country. 
And you know, the debate is that they don't do a million tons 
or more a year, and therefore, they can't be dredged every 
year; they don't qualify, they don't qualify for the annual 
dredging. And I think the same would apply to ocean ports, and 
we need to relook at the guidelines, in my opinion, because if 
you have 10 small ports that you don't ever dredge, what good 
is the big port going to be? So, yes, sir, I will definitely 
look into that with you and be glad to learn more about it.
    Senator Merkley. Those ports and jetties are just 
absolutely essential to those communities, and when they fill 
in and you get big breaker waves, you get some brave people 
saying, well, we are going to go out there, we have to go 
fishing, and then they end up rolling their boat and dying, and 
then everybody goes why didn't we dredge this thing. Meanwhile, 
those are the ones who went out. Everyone else who didn't go 
out is basically the economy is shut down. So, thank you.
    I wanted to turn to the issue of fishing villages along the 
Columbia River. We built these phenomenal dams, the Dallas Dam 
and the Bonneville Dam, the John Day Dam, and when we did it we 
promised that the native communities would be rebuilt, their 
villages would be rebuilt. There were also a community of, if 
you will, white Americans. That community was rebuilt. But the 
communities for the native Americans were not rebuilt, and that 
is a moral obligation that we haven't fulfilled decade after 
decade.
    I visited some of the temporary makeshift fishing sites 
that are just horrific. Would you commit to visiting those with 
me so that we can get some national understanding of the 
challenge being faced there?
    Mr. James. Absolutely.
    Senator Merkley. Thank you so much. We have worked with the 
Corps of Engineers, and they gave us language to include last 
year--well, this year, 2017. We included that language. Really, 
they have been helpful at every turn in this effort. However, 
now we have run into an obstacle called the Office of 
Management and Budget, which has said, no, we don't want to 
spend the money on rebuilding these villages, and I am very 
disturbed by that. But we are going to need a close partnership 
with the Corps of Engineers. There are Democrats and 
Republicans on the two sides of the river; it is House and 
Senate members.
    Will you be able to work with us to try to remedy this 
historic wrong?
    Mr. James. Sir, I am a firm believer in cooperation and 
collaboration, and if that is where these lie, I definitely 
will.
    I ran into this on my own in the Missouri River system 
several years ago. We visited a dam there that tribes had been 
displaced in the 1940s, and they were promised housing. They 
were moved from the fertile valley, where they raised crops and 
had a very nice town--we saw videos of it--up to an arid plain. 
So, they were promised housing up there and irrigation in order 
to grow crops, and that was in 1944, and I was there, I think, 
8 or 9 years ago. So, I am familiar with that problem in this 
country, and if asked, and if confirmed, I will look into it 
with you.
    Senator Merkley. Thank you so much. I appreciate that you 
have that personal understanding of the situation and a sense 
that we should honor these obligations that we made when we 
undertook these big projects. Thank you.
    Mr. James. Yes, sir. You are welcome. Thank you.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    And thank you, Mr. James, very much for being here today. I 
would like to echo the thoughts that were shared by Senator 
Rounds as well. That was a devastating flood up and down the 
Missouri River during 2011. In our State, of course, like all 
of the other States involved in that flooding situation, called 
up many of their National Guardsmen. I was one of those 
National Guardsmen that was called up. I spent a lot of time on 
the levee system up and down the Missouri River in that 
particular summer, and I just want to emphasize how devastating 
this was, because during that flood event we had people in 
southwest Iowa that were out of their homes 4 months; actually, 
much longer than that.
    The reason they were out of their homes for 4 months is 
because their homes were literally under water for 4 months. 
That is the significance of this flood event. This was not a 
quick pass through event. They were out of their homes for 4 
months. Only after the waters had gone away were they able to 
come back to an absolutely devastating situation.
    Some of those folks are just now getting back into homes 
that have been rebuilt. So very devastating actions. We need to 
make sure that that doesn't happen again, whether it is the 
rewrite of the Master Manual by the Corps of Engineers, 
whatever has to happen, the measurement tools in place, we need 
to do that. It is something that will never be forgotten up and 
down that river system.
    In 2008 I was also called up as a National Guardsman, this 
time in a different flood event in Cedar Rapids, and when we 
sat down in my office about a month ago I had told you about 
this, and I explained the challenges that are being faced by 
the city of Cedar Rapids and its Flood Mitigation Project. So, 
in 2008 the city suffered a devastating flood as well, and that 
loss to that community was $5.4 billion. I am not talking 
hundreds of millions; $5.4 billion of losses to the city of 
Cedar Rapids.
    The city's Flood Mitigation Project was first authorized in 
the 2014 Water Resources Development Act, or WRDA, and then 
mentioned for prioritization in WRDA 2016. However, due to the 
project's low benefit to cost ratio, the BCR, Cedar Rapids has 
been unable to secure Federal funding for it, and the reason 
for that is because of the relatively low property values in 
the city. Iowa has very reasonable housing property values, so 
that keeps the BCR down, and it prevents Federal funding.
    This is not an issue that is unique to Iowa; I have talked 
to many other rural legislators that are suffering from the 
same low BCRs.
    The Corps has some discretion to fund projects with low 
BCRs if it deems there is a significant risk to human safety. 
In fiscal year 2017, four of the five projects receiving 
funding under this human safety exception were in California. 
Four of five in California.
    Will you commit to ensuring that all areas of the country 
are treated equally in this aspect?
    Mr. James. Yes, ma'am, I most certainly will.
    Senator Ernst. I think that one life in California is equal 
to the value of a life in Iowa as well. Very significant.
    And do you believe that the BCR metric should be modified?
    Mr. James. Absolutely.
    Senator Ernst. And how do you think that we can modify 
that?
    Mr. James. Senator, I really don't want to presume how I 
would do that. I would want to get economists and the right 
people to get with me to look at that. But it is not right that 
there are people in this country who will never ever get any 
type of water infrastructure project under the current BCR 
analysis.
    Senator Ernst. I appreciate that point of view, and thank 
you for acknowledging that we do need to consider this. I think 
that is the first step for us moving forward with this because, 
of course, the coastline property values are much more than 
what you will find in rural South Carolina or rural Iowa or 
rural Wyoming, so we do need to take a look at that, and I 
would love to work with you on that.
    Will you commit to working with me and the OMB to modify 
those metrics and do that in a timely manner? Let's work on 
that soon. Will you commit to that, assuming your confirmation?
    Mr. James. Yes, ma'am, I sure will. Just give me time to--
the first thing I would want to do, if confirmed, is to visit 
with OMB and EPA and Fish and Wildlife and Department of 
Agriculture and try to establish a working relationship to the 
point where, if you have a problem, you can call or go over 
there. And I would like a little bit of time to do that. Then 
absolutely, yes, ma'am. I think this needs to be addressed for 
the benefit of the country. There are people even in live 
safety issues that are behind the lack of a project just 
because of the BC ratios.
    Senator Ernst. Well, thank you very much. And I think 
collaboration is important and a great working relationship 
between all of those agencies is imperative to making sure that 
we get this issue resolved. So, thank you very much, Mr. James.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Carper.
    Senator Carper. Thanks.
    Senator Duckworth, if you would like to go next, I will 
yield to you.
    Senator Duckworth. Thank you, Ranking Member Carper.
    And thank you also, Chairman Barrasso, for this hearing.
    Mr. James, thank you for your time today and for your 
decades of service, including your 36 years on the Mississippi 
River Commission. I believe the Corps can benefit greatly from 
your experience and expertise.
    I really enjoyed our conversation yesterday. I was so happy 
to learn about your background as a farmer also, in addition to 
your extensive experience with the Corps. I think that you are 
just the right person to move forward in this position, 
especially if you stick with your recognition that building a 
better relationship between the Corps, EPA, the USDA will 
improve the Corps' ability to advance its mission and benefit 
our farmers, especially those in Illinois.
    I would like to just quickly follow up on a couple 
questions from our conversation yesterday.
    As we discussed, our inland waterways system in the United 
States gives us a competitive advantage across several 
important industries. If we don't invest in our waterways, we 
are going to lose that advantage, and markets will inevitably 
turn toward other systems, more efficient systems oftentimes in 
other countries.
    I also appreciate your interest and commitment to 
protecting the Great Lakes from aquatic invasive species like 
the Asian carp, while also maintaining sustainable and 
efficient commerce on the Illinois River.
    Do you agree that we must keep the Brandon Road Study on 
track, while signaling to businesses that rely on our waterways 
that they will remain efficient and cost effective?
    Mr. James. Yes, to both of those, ma'am. I think when the 
objective is to try to stop a fish from swimming upstream, you 
don't have much time to do that, and from what I have read, I 
am not satisfied with the progress at this point, even not 
having been confirmed, just reading what is happening. And then 
as far as permanent structure in that area, I think it would 
devastate the navigation process and hurt a lot of people, both 
large and small businesses.
    Senator Duckworth. Thank you.
    I would like to chat a little bit about the Navigation 
Ecosystem Sustainability Program, the NESP. I appreciate your 
recognition of the national significance of NESP to the Corps 
navigation and environmental missions. As you may know, the 
Illinois delegation, along with our colleagues in neighboring 
States, continue to advocate for the advancement of NESP. 
Unfortunately, we have been unsuccessful in both Republican and 
Democratic administrations, so this is a bipartisan 
frustration.
    Will you work with me and other Senators who represent the 
Upper Mississippi region to identify a path forward with OMB 
and the White House that recognizes the importance of NESP, 
with the goal of including pre-construction engineering and 
design funding in the President's budget request to Congress?
    Mr. James. Yes, ma'am, I will work with you on that.
    Senator Duckworth. Thank you.
    I would also like to chat about the McCook Reservoir, which 
we talked about yesterday. It benefits Chicago and 36 suburban 
communities, and it protects approximately 150,000 structures 
from flooding and significantly reduces untreated sewage 
backflow into Lake Michigan. And you had mentioned the 
importance of these reservoirs.
    Under a pilot program established in WRDA 2014, the 
Metropolitan Water Reclamation District of Greater Chicago is 
working with OMB and the Corps to finalize a project 
cooperation agreement amendment to transfer a lump sum of $34.7 
million to MWRD for design and construction of Stage 2 at 
McCook. It is my hope and expectation that the Corps' fiscal 
year 2018 workplan reflects this agreement.
    Will you commit to doing everything in your power to ensure 
this funding is provided and the arrangement is executed 
quickly to ensure timely and cost effective flood protection 
for the Chicagoland area?
    Mr. James. I was amazed when I learned about that project, 
how innovative that it was being in the location, and yes, 
ma'am, I will work with you toward completion of that.
    Senator Duckworth. Thank you. And I am very appreciative of 
how open you have been and how willing you are to work with us, 
and I hope that I can count on you to continue with that 
openness and allow my office to work with your office well into 
the future so that we can safeguard the Upper Mississippi River 
and also the economic viability of our farms.
    Mr. James. Senator, as I told you during our discussion, I 
plan to make the ASA office an open door office so that any 
member of the Congress that wants answers, needs answers, needs 
contact, wants discussion, it will be there. If I am called 
partially, if I can't get back to that Congressman immediately, 
I will get back that afternoon, the next morning, as soon as 
possible, particularly the members of this Committee and 
subcommittees that oversee our policies.
    Senator Duckworth. Thank you. And thank you for your 
decades of service to our country.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    We appreciate, Mr. James, your willingness to serve. I am 
very excited about the fact that you are willing to do this. I 
have had the opportunity to work with you, now, for several 
years, and as you mentioned earlier, you are not a bureaucrat 
in any sense of the word; you are a guy that has a lot of 
common sense and a kind of the get-to-it type guy, you know, 
let's get this stuff done.
    The other thing is I know Senator Sullivan is very 
concerned about the Arctic, and I would echo that also. I am 
the Appropriations Subcommittee Chairman that has to do with 
the icebreakers and things, and so we are committed to doing 
this; we just need to get the dollars to get it done, which is 
so, so difficult, and yet it is a national security interest. 
So, I look forward to working with you and working with him so 
that we can get some of these things accomplished.
    In an Environment and Public Works Committee hearing 
earlier this year, Secretary of Transportation Elaine Chao 
assured us the Administration's infrastructure proposal will 
not just address the three Rs, a tradition associated with 
infrastructure--roads, rails, and runways. Secretary Chao 
explained energy, water, and broadband will also be included in 
the Administration's infrastructure proposal.
    Can you explain the benefit in incorporating water into an 
infrastructure proposal? More specifically, how does investing 
in our nation's ports and inland waterways affect the day to 
day lives of everyday Americans?
    Mr. James. Well, it has been my experience, Senator, that 
without the inland waterway systems that we have, commerce 
would stop. We don't have enough roads in this country to 
accommodate trailer trucks. The railroads are full now, so even 
if we were to have a major failure on one of our existing 
facilities on any inland waterway, the commerce would just be 
stopped, and I don't think we can afford that at all.
    Senator Boozman. Very good. And then, you know, also from 
an environmental standpoint, the efficiency on the waterway, 
compared to the airways and the----
    Mr. James. Yes, sir. There's no question about that.
    Senator Boozman. Very good.
    Public power and electric cooperatives have partnered with 
the U.S. Army Corps of Engineers and Department of Energy's 
Power Market Administrations for over 80 years in the Federal 
Hydropower Program. Many view this as one of our longest 
standing and successful public-private partnerships. Do you 
support this continued partnership?
    Mr. James. Absolutely, sir. I think every lock and dam in 
the Corps portfolio should have a hydropower plant attached to 
it, either private or federally owned, according to who would 
want to own it, of course.
    Senator Boozman. Very good.
    The 2014 WRDA bill contained requirements for the Corps of 
Engineers to provide annual 5 year projections of reservoir 
operations and maintenance, O&M costs. O&M costs can vary 
greatly from year to year, making budgeting for this expense 
very difficult. Unfortunately, it is my understanding that many 
Corps districts across the country have yet to provide these 
O&M projections to their partners. If confirmed, will you make 
complying with these O&M projection requirements from WRDA 2014 
a top priority?
    Mr. James. Absolutely. And I am shocked to hear that they 
haven't been, sir. That is part of the problem; we have to quit 
focusing on the process and focus more on the results in the 
civil works of this country. And I am sorry to hear about that, 
but I will check into it, if confirmed.
    Senator Boozman. I appreciate that. That is music to my 
ears, and I think to the Committee as a whole.
    So, thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks.
    You are making a lot of friends here, and you are also 
making a lot of commitments. One of the things you may want to 
do is just find somebody who is really good to help you doing 
your schedule and sort of like keeping you going, pointing in 
the right direction. Make sure you have really good talented 
people, because your nature is to be very open and welcoming 
and inclusive, which is great. I wish other folks throughout 
this Administration and other administrations would follow 
that. But the idea, the question that the Chairman asked you at 
the beginning about being responsive to inquiries, questions, 
and stuff like that, you want to be very responsive, so that is 
good. Just make sure that you surround yourself with people who 
understand----
    Mr. James. Well, Senator, I noticed yesterday in your 
office a couple that I might like to bring over.
    [Laughter.]
    Senator Carper. I am tempted to say I brought a couple of 
resumes I would like to give you, but I don't have one. Not 
one.
    Just a couple of words of advice, not that you need it. One 
of the things, from time to time we have a new Administration, 
new people coming into these positions, and the person who held 
that position in the past might have been very good and has 
gone on to do other things. One of the things you may want to 
do, if you haven't done already, is to seek out Jo-Ellen Darcy 
and just talk with her. She filled this role for a number of 
years.
    Just like I like to say we have something called new 
Senators, orientation for new Senators, something we borrowed 
from the National Governors Association. We used to have a 
National Governors Association orientation for new Governors 
and spouses right after the election, and the idea was for the 
grizzled veteran Governors to explain to the new guys and gals 
all the mistakes we made, and to learn from our mistakes. I 
think there is value in reaching out, in this case, to Jo-Ellen 
Darcy.
    Mr. James. Thank you.
    Senator Carper. Go ahead.
    Mr. James. I said, thank you, sir.
    Senator Carper. You are welcome.
    Also, a couple people have mentioned the General 
Accountability Office. It is run by a guy named Gene Dodaro, a 
wonderful human being and a wonderful servant to the people of 
this country. But they put out something every 2 years called a 
High Risk List, high risk ways of wasting money, and a few 
years ago, for the first time, they put on their High Risk List 
something that I think Senator Whitehouse alluded to, and that 
is the sea level rises. And we have stronger storms. I don't 
think we have had two Category 5 hurricanes in the same year, 
ever, and we have this year. We have had maybe 30 Category 5 
hurricanes in the last 100 years; this year we had 2. So, 
something is going on. And in my little State of Delaware the 
sea level is rising and the State is sinking, which is not a 
very good combination, and we welcome you to come there.
    I have said to my colleagues before, in Delaware we can 
come up on I-95 out of Washington and pick up State Route 1, 
which is a north-south road that takes you right down parallel 
to the ocean, and we can go over and take a look at the 
Delaware Bay. When you drive out toward the Delaware Bay 
heading east in Delaware, in the southern part of our State, 
after a few miles you get to the Delaware Bay. You get out of 
your car and you look, well, there is the Delaware Bay. It used 
to be a parking lot where people parked their boats, their 
trailers, and their trucks, and so forth, and now it is the 
Bay.
    And you can look off to like about 1 o'clock off to the 
right and you see a concrete bunker just barely sticking out of 
the water in the Bay way out there. It used to be on dry land 
500 feet behind you. So, something is going on. And it is not 
just Delaware; it is not just Maine; it is not just Florida; it 
is all of us, and it is a matter of great concern.
    We talked yesterday about replenishment beach nourishment. 
I think we have more five-star beaches in Delaware than maybe 
any other State in the country. We are proud of that. And the 
Army Corps is very helpful to us, State-Federal partnership, in 
re-nourishing the beaches and making sure that they are going 
to be there.
    The real key, though, is to make sure the dunes are there 
so when the storms come in; the dunes can be a shock absorber. 
And instead of you having--whether it is a Category 1 hurricane 
or nor'easter, whatever, the dunes are there to protect the 
towns, the communities, the infrastructure, businesses, and 
that is hugely important. We have had a great relationship with 
the Army Corps for years in Delaware, and we value that very, 
very much.
    But beach re-nourishment projects tend not to compete well, 
overall, in benefit-cost ratio analysis when compared to larger 
projects like ports, and I would just ask--and you may be able 
to answer this or you may want to take this question for the 
record--but just what other factors should be considered in 
identifying project benefits in order for initiatives to move 
forward, and how should the Corps prioritize those projects? 
Any ideas?
    Mr. James. No, sir, none that would give you an answer that 
you would appreciate today. I have ideas, but they are 
convoluted and not down a direct line, and I would really like 
to look into that further.
    Senator Carper. Maybe sometime when you come over to 
Delaware, we will get into my 2001 Chrysler Town & Country 
minivan with 465,000 miles on it, and we will drive down State 
Route 1 and head over to Prime Hook Beach, and I will show you 
where the beach used to be and where the parking lot used to 
be, and so forth, and it will make it real.
    Mr. James. Sounds like a good place to think.
    Senator Carper. All right. I have some more questions, but 
we will hold off for those right now. Thanks.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. James, for being here today and for your 
willingness to serve; also for your visit and the conversation 
that we had in my office last week. I appreciate your great 
knowledge in this area, but also for educating me on cotton 
farming, which I didn't know much about until I got a chance to 
ask you.
    In our meeting, you kind of beat me to the punch because 
you put a bright line under the cost and slow progress of the 
feasibility studies in the Corps. We talked about this. You 
know, in a State like West Virginia, our lock and dam 
infrastructure is generally several decades old. Of the 614 
West Virginia dams that the Corps has designated in the 
national inventory of dams, all but 72 of those were built 
before 1970. Some of them even date back to the 1920s.
    So, as the Corps looks at replacement and rehabilitation, 
it will be required to conduct feasibility studies. At the same 
time, many of the water storage agreements between the Corps 
and these towns and companies have either lapsed or haven't 
been updated for years. So, budgets being what they are, the 
Corps comes to these entities and asks them for cost sharing, 
and a lot of times, for these small communities and regional 
governing areas, these are cost prohibitive. In addition to 
looking at that, the studies are frequently used to revisit the 
terms of water storage agreements that have lapsed or gone out 
of date.
    So, for cash strapped communities, this is an impossible 
choice. They either can't afford to fund the study or they 
don't wish to be held liable twice, because they could be held 
liable because the Corps has said that if they don't pony up to 
the studies, then they can be threatened with charges of 
trespassing.
    So, do you agree that this is an issue? And how would you 
go about balancing the needs and finances of local 
stakeholders, the Corps' budget, and economic development and 
public safety implications around these feasibility studies?
    Mr. James. Senator, I think that goes right back to the 
benefit-cost ratios that we were talking about a little 
earlier. Communities such as you are speaking of, they can't 
achieve the benefit side of that ratio to the point where the 
Corps can support it any longer, and that entire issue has got 
to be leveraged in some way downward to accommodate people that 
live in rural areas, lower income areas, or those people are 
going to be left out of the infrastructure formula.
    Senator Capito. Right.
    Mr. James. And it is not right. As we can see, what we have 
enjoyed, everybody was included in the first round of 
infrastructure our country built, and here we are sitting, 
making up rules and policies that may exclude people, and I 
don't feel that is right.
    Senator Capito. Thank you.
    Mr. James. I know it exists in your part of the world----
    Senator Capito. Definitely.
    Mr. James [continuing]. And I will definitely, as I move 
forward on that, if confirmed, I will get back with you, and we 
will work on that.
    Senator Capito. Well, I think we are thinking along the 
same lines there, and I think the timelines in a lot of these 
situations, sometimes the timelines draw out so much, 
obviously, it becomes more expensive, or communities and 
private entities just throw up their hands and say, I can't do 
this, I don't have the expertise. So, I hope we can work 
together on that for the smaller, more rural areas.
    One of the things--just briefly I would like to say, and 
this really isn't a question, but we talked about this in my 
office as well. All the different entities, and you have 
mentioned several times that would be one of the first things 
you would do, would be to get Fish and Wildlife in the room, 
the EPA in the room, Department of Ag in the room, all the 
players at the Federal level that can sometimes either A, work 
across purposes, or B, make the process even more cumbersome 
than it really needs to be. And I would encourage you to move 
in that direction and be aggressive there, because I think a 
lot of times some of the reasons that things become much more 
complicated, because nobody is really in charge here.
    Maybe you have four agencies that are weighing in, but 
there is no principal that is willing to take the reins and 
kind of honcho the project to see it through the bailiwick of 
Federal agencies. So while I wouldn't say the Corps needs to be 
in charge of everyone or you need to take responsibility of all 
of these, I do think there needs to be a recognition between 
agencies that somebody is going to have to be the principal 
steward of figuring out how to get these things either A, done, 
or even better, if they are impossible or not going to work, 
don't drag through the process forever and a day without 
putting the yield or the stop sign in front of the community or 
the entity, or however you want to phrase that, and at least 
let them know, OK, this is what your major problems are; you 
are not going to get to where you want to be in the end unless 
you make some major changes. Don't drag that out to the end. 
That is discouraging and also very counterproductive.
    So, I plan to vote for you. I know you will be a great 
nominee in this area, and I look forward to working with you. 
Thank you.
    Mr. James. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Cape Cod is an economic pillar and recreation oasis for 
Massachusetts, and the only accessible way to get on that 
island by land is by two bridges which span the Cape Cod Canal. 
Regrettably, these two 80 year old bridges, which are crucial 
evacuation routes, do not meet modern specifications.
    The Corps of Engineers, which maintains the bridges, is 
currently conducting a study to evaluate whether the bridges 
need to be replaced or substantially rehabilitated. The agency 
that you are seeking to run is charged with reducing risk from 
disaster, so my question to you is will you work with me to 
ensure that the Corps of Engineers has the resources and 
authorities it needs to rehabilitate or replace these bridges?
    Mr. James. Yes, sir, I sure will.
    Senator Markey. Thank you, sir. And many of our nation's 
roads, ports, airports, railways not only serve as critical 
arteries of commerce and transportation, but also play an 
instrumental role in facilitating mass evacuations and 
expediting recovery and emergency response. But many of our 
nation's evacuation routes may not have the capacity or 
resilience they need to fully serve their critical role. That 
is why I am planning to introduce legislation that tie up 
Federal resources toward these critical evacuation routes to 
ensure that we can protect the public and better respond to 
disasters, and I think it is important for all of our 
colleagues to work on addressing this important issue.
    Plymouth Harbor, in 2020 we will be celebrating the 400th 
anniversary of the voyage of the Mayflower to the settlement in 
Plymouth, so that is just 3 years from now. But the celebration 
won't be complete if ships cannot get into and out of the 
Harbor. Regrettably, Plymouth Harbor has filled up with so much 
sand that ships are having trouble navigating.
    Mr. James, if confirmed, will you work with me to ensure 
that we complete the Harbor deepening before the 400th 
anniversary of the settlement of Plymouth in the year 2020?
    Mr. James. Senator, I will work with you toward that. I 
look forward to it and will get back with you.
    May I ask you a question?
    Senator Markey. Please.
    Mr. James. Will there be a dredge disposal problem in that 
area? If it were to be, it would slow down that process.
    Senator Markey. That is a very good question that I am 
going to rely upon the Army Corps to determine.
    Mr. James. OK, sir. I will ask them. Thank you.
    Senator Markey. Thank you.
    If we don't maintain our nation's rivers, channels, 
harbors, we will be effectively hitching an anchor to the U.S. 
economy. We have communities all across Massachusetts, New 
Bedford, Wellfleet, Essex, Gloucester, Newburyport, the 
waterways are filling up with so much sand, again, that vessels 
cannot reliably and safely pass, which harms commerce, 
recreation, and safety. Many of these waterways are federally 
owned, and it is the U.S. Army Corps of Engineers' 
responsibility to dredge these waterways.
    In Massachusetts we have had success in securing funding 
for these important projects. Over $18 million was awarded to 
Boston Harbor in fiscal year 2017; another $58 million in the 
President's fiscal year 2018 budget. And I look forward to 
working with the Army Corps to maintain this strong level of 
Federal support. We still have a lot of work to do, this big 
backlog.
    And I thank you, Mr. James, for your willingness to put 
yourself up for this job.
    Mr. James. Thank you, Senator, very much.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Mr. James, I want to first express my appreciation to the 
Army Corps for being a part of the conversation that led to the 
removal of a sandbar from the Big Horn River. Earlier this year 
the sandbar had caused ice jams and serious floods in the city 
of Worland, Wyoming, necessitating the evacuation of 80 of our 
citizens. While the sandbar's removal is an important step 
toward protecting lives and property, I would note, as we 
talked yesterday, it is only a temporary solution. Eventually, 
sediment will redeposit, and the area could face the same 
threat.
    So, will you commit to working with Wyoming and with me to 
find a long term solution to this problem?
    Mr. James. I will, sir.
    Senator Barrasso. And Mr. James, in the Water 
Infrastructure Improvements for the Nation Act of 2016, 
Congress passed a provision, that I authored, to establish a 
pilot program that will help develop effective technologies to 
reduce ice jams. It is important to communities in Wyoming, as 
ice jams are a primary driver for flooding in areas such as 
Worland and Grable. I understand the Corps is still working to 
identify projects for this program.
    If confirmed, would you commit to making the implementation 
of this pilot program a priority?
    Mr. James. Yes, sir, I will.
    Senator Barrasso. And Mr. James, the EPA is currently in 
the process of considering a revised definition of waters of 
the United States. Many in my State have been concerned about 
expanding Federal control over State waters under the previous 
Administration, and requiring ranchers and farmers to get 
costly permits for simply putting a shovel in the ground on 
their property, their own property.
    So, for example, under the previous Administration, a 
constituent of mine, Mr. Andy Johnson of Fort Bridger, Wyoming, 
was threatened with a $75,000 fine per day for simply building 
a stock pond on his property.
    So, if confirmed, will you commit to use common sense and 
consider the best interest of the people of my State and the 
entire country when interpreting Federal laws?
    Mr. James. Absolutely, sir. As long as it is the law, I 
will follow it.
    Senator Barrasso. And Mr. James, you have more than three 
decades of experience in the infrastructure field, including 36 
years as a presidential appointee by Administrations of both 
parties on the Mississippi River Commission. How has this 
experience prepared you for the role of Assistant Secretary of 
the Army for Civil Works?
    Mr. James. Well, Senator, I do have that experience, and it 
has been my experience as a member of the River Commission to 
not only learn more about the infrastructure and how it should 
be addressed in this country, but also to understand some of 
the inadequacies inside the processes that we try to get things 
done, and I think that experience will help me as well in 
working with the Corps and other agencies in order to try to 
speed up the process and get to the results of what we are 
trying to do. I think that is one major thing I have learned.
    Senator Barrasso. My final question is many individuals and 
organizations who work with the Corps have complained that the 
process that the Corps follows to get from identifying that 
water resources problem to actually implementing a solution can 
just take too long and cost too much money. So, I wondered if 
you had any thoughts on how to best improve the process, and 
will you make it a priority to develop and implement ways to 
improve the process?
    Mr. James. I agree 100 percent to make it a priority of 
mine. To improve the process, I want to get with the leadership 
of the Corps, because I am sure, if they are there, they 
recognize some of it themselves. So, hopefully we can address 
that. You know, a day saved is a dollar earned, and that is the 
way I look at the process.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Are there any questions you wish had been 
asked that you have not been asked?
    Mr. James. No, sir.
    Senator Carper. OK.
    One of the issues that has been raised a couple of times 
during this hearing is money. There is an old line in the song 
not by the Beatles, but somebody, maybe the Isley Brothers 
before that, the best things in life are free, but you can give 
them to the birds and bees; I want money. That's what I want.
    All this stuff costs money, and we are not allocating 
nearly enough to do the job, whether it is inland projects, 
port projects, rivers. I don't know if it was the American 
Society of Civil Engineers, they put out an annual report card, 
and they evaluate our dams, levees, inland waterways, and so 
forth. Last year they awarded the grade of D, as in dog, and I 
think they mentioned there is an overall cumulative investment 
backlog of nearly $140 billion and in authorized--projects that 
have been authorized but unconstructed, of about $60 billion.
    The Corps has a big problem because their annual budget 
hovers right around $4.5 billion. Think about that. And we have 
a reluctance in this country to pay for things, things that we 
need to have; whether it is roads, highways, bridges, airports, 
rail, ports, you name them. Just a reluctance.
    And not that you need my advice, but during the course of 
putting the budget together, we are still working this month on 
a final spending package for the current fiscal year, which 
started on October 1st, which is not the way we did business in 
Delaware when I was Governor; but it is the way we do business 
here, sadly. But the budget process starts by a proposal from 
the Administration, and you are going to be asked how much do 
you need and to make the case for that allocation. And the need 
here is huge.
    And I think it was Sheldon Whitehouse, Senator Whitehouse 
who mentioned the Harbor Trust Fund, where moneys are collected 
for one purpose and not spent entirely for that purpose.
    I think there is a request for an increase in fees for 
inland waterways. I think there is a fee for inland waterways. 
I think it is a fee on fuel, about $0.29 a gallon, and I think 
the Administration--it is kind of a 50-50 deal that half the 
money comes from those who use the waterways; the other half 
comes from the Treasury. But I think the Administration has 
asked for some extra money from those who use and increase the 
user fees, which I think is probably appropriate, and you are 
going to be asked from time to time where should the money come 
from, and we get into roads, highways, bridges here, too, that 
is part of our jurisdiction, but the part that really pertains 
to you is this Inland Waterways Trust Fund.
    And I think, at the end of the day, if the Congress doesn't 
want to appropriate the money or allow the fees to be 
collected, that is one thing, but I think you need to make the 
ask and then make the case to us. Make the case to us. So, I 
would leave that.
    I think I think that is pretty much it. We once had a 
hearing, I don't think it was this--no, it was this Committee, 
and Lisa Jackson had been nominated by President Obama to be 
the head of EPA. She had her husband and kids with her at the 
hearing, and I thought it went pretty well. And at the end of 
the hearing I was just joking, and I said to her children, 
well, take a good look at your mom, this is the last time you 
will see her until Christmas. Fortunately, they were old enough 
to know I was joking, but I would just say, Jennye, take a good 
look at him. You will hopefully see him before Christmas.
    To you, this is a sacrifice for everybody here, but thanks 
for your willingness to share him with us for a while. It looks 
like you have a pretty good job training him. It is a hard job, 
but we look forward to working with you. As Jennye may know and 
your son may know, we are not the committee of jurisdiction; we 
share jurisdiction over this agency that you will lead, so we 
don't get to vote up or down here and report out the 
nomination, but we have a huge ongoing interest in what you do 
and want to be a good partner, and we look forward to that 
relationship, and we look forward to welcoming you to Delaware 
and I am sure to 49 other States in the months to come.
    All right, thanks so much. God bless. Merry Christmas to 
you and your family.
    Senator Barrasso. Thank you, Senator Carper.
    No more questions for today. The members may submit follow 
up written questions for the record by the close of business 
tomorrow. We ask you please respond to the questions by noon on 
Monday.
    I want to thank the nominee and congratulate you again. 
Thank you for your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:41 a.m. the Committee was adjourned.]

                                 [all]



</pre></body></html>
